                                                       NA nONAL SCIENCE FOUNDAnON
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESnGA nONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 109050023                                                                     Page 1 of1




                DUring a proactive review, we selected this award 1 and requested and reviewed the
         University's2 general ledger. The general ledger raised some questions with regard to the.
         University's expenditure of funds under indirect costs and overtime paid to the pe and possibly the
         co-pf. We requested further documents and explanation from the University, and the inforination
         provided sufficiently answered all questions.

                   Accordingly, this case is closed.




NSF DIG Form 2 (11102)
